<html>
<title> - [H.A.S.C. No. 116-50] THE DEPARTMENT OF DEFENSE ORGANIC INDUSTRIAL BASE: CHALLENGES, SOLUTIONS, AND READINESS IMPACTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-50]

                   THE DEPARTMENT OF DEFENSE ORGANIC

                      INDUSTRIAL BASE: CHALLENGES,

                    SOLUTIONS, AND READINESS IMPACTS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 21, 2019

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-807              WASHINGTON : 2020 
 
 
                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
                 Brian Greer, Professional Staff Member
                 John Muller, Professional Staff Member
                           Sean Falvey, Clerk
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     1
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     2

                               WITNESSES

Gamble, LTG Duane A., USA, Deputy Chief of Staff, Department of 
  the Army.......................................................     4
Kirkland, Lt Gen Donald E., USAF, Commander, Air Force 
  Sustainment Center, Air Force Materiel Command, Department of 
  the Air Force..................................................     8
Moore, VADM Thomas J., USN, Commander, Naval Sea Systems Command, 
  Department of the Navy.........................................     5
Peters, VADM G. Dean, USN, Commander, Naval Air Systems Command, 
  Department of the Navy.........................................     7
Shrader, MajGen Joseph F., USMC, Commanding General, Marine Corps 
  Logistics Command, Headquarters Marine Corps...................     9

                                APPENDIX

Prepared Statements:

    Gamble, LTG Duane A..........................................    37
    Garamendi, Hon. John.........................................    33
    Kirkland, Lt Gen Donald E....................................    52
    Lamborn, Hon. Doug...........................................    35
    Moore, VADM Thomas J., joint with VADM G. Dean Peters........    43
    Shrader, MajGen Joseph F.....................................    63

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Scott....................................................    71

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
                   THE DEPARTMENT OF DEFENSE ORGANIC

     INDUSTRIAL BASE: CHALLENGES, SOLUTIONS, AND READINESS IMPACTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                       Washington, DC, Thursday, November 21, 2019.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. John Garamendi 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. Good morning. I would like to welcome 
everyone to this hearing of the subcommittee on the Department 
of Defense organic industrial base.
    The Department of Defense organic industrial base, 
comprised of depots, arsenals, and shipyards, is a critical 
part of our national security apparatus. Its mission is to 
maintain, reset, and repair the platforms, equipment, and 
supplies of our Armed Forces. The organic industrial base must 
be postured to support peacetime requirements while also being 
agile enough to respond during a mobilization, a contingency, 
or an emergency.
    Both of these requirements are at the crux of readiness and 
therefore requiring the oversight of this subcommittee. As the 
Department of Defense acquires new planes, ships, and vehicles, 
and weapons systems, and implements the National Defense 
Strategy, it cannot ignore the operation and support portion of 
the acquisition cycle and must plan strategically for the 
future.
    This subcommittee is interested in hearing from our 
witnesses how the services plan to modernize the organic 
industrial base to ensure that it will continue to be postured 
to maintain these modernized systems. It is not particularly 
useful to go buy new stuff and forget to maintain it into the 
future.
    If the organic industrial base cannot quickly repair 
weapons systems as they require maintenance, then we are doing 
a disservice to ourselves and to this nation. Furthermore, as 
we find new platforms and field new platforms, insufficient 
planning for operation, maintenance, and repair of these 
platforms is completely unacceptable.
    Regarding our organic industrial base infrastructure, it is 
widely known that the facilities and the equipment in the 
industrial base is aging and, in certain locations, is in poor 
or failing conditions. This situation does not help the 
maintainers if they are required to work in a dilapidated 
building with equipment made many decades ago. With that in 
mind, we must have a plan to prioritize the facilities, the 
sustainment, restoration, and modernization accounts that 
support the organic industrial base. And be sure that we will 
be watching for that and for those accounts.
    To that end, I look forward to hearing from our witnesses 
on their plans to modernize the infrastructure, the capital 
equipment of the shipyards, the arsenals, and the depots. In 
addition to the facilities and equipment, we cannot and will 
not ignore the essential organic industrial base workforce. The 
Federal civil servants working at these locations across the 
globe provide unique skill sets that we cannot afford to lose. 
Their mission is essential. And we must make sure that we can 
hire and train the next generation in a timely fashion, and 
give them the protection and rights they deserve for their 
loyalty to this country.
    While depot, arsenal, and shipyard hiring managers have the 
ability to hire different types of employees, whether it be 
term, temporary, or full-time Federal employees or contractors, 
we must continue our oversight of this workforce to make sure 
people are being utilized and employed appropriately. In 
addition, we need to ensure that the Department's senior 
leaders--those of you at the table--have the tools and 
authorities they need in order to compete with the private 
sector to recruit, train, retain a motivated and skilled 
workforce.
    We, this committee, will continue to focus on readiness and 
invest into the organic industrial base, as it is a key 
contributor to military readiness. I look forward to hearing 
from our witnesses here today on the challenges they experience 
in their organic industrial base, and their lines of effort to 
address these challenges and ensure that the organic industrial 
base is postured to support the National Defense Strategy and 
military requirements well into this, the 21st century.
    Gentlemen, we look forward to your testimony. But first, 
Mr. Lamborn, the ranking member.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 33.]

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Thank you, Chairman Garamendi. I would like to 
thank each of our witnesses for your testimony today.
    The depots within our military services are essential for 
maintaining the complex ships, aircraft, and land systems that 
form the building blocks of our joint force. It is not enough 
for our depots to meet today's requirements. We must also 
posture them to remain relevant for future demand. This raises 
a major concern about the state of our aging infrastructure.
    In an April 2019 report, the GAO [Government Accountability 
Office] found that although most depot facilities are rated 
poor on the DOD [Department of Defense] rating scale, the 
military services do not consistently track when facilities and 
equipment conditions lead to maintenance delays. GAO also found 
that the trend for facility condition is downward.
    As the costs and complexities of major defense systems 
continue to evolve, we have to build capacity to support these 
systems. At the same time, we will continue to rely on many 
legacy platforms to serve well past their intended life cycles. 
The B-52 Stratofortress, for example, first flew in 1954 and is 
now estimated to fly into the 2040s.
    The M1 Abrams [tank], although significantly upgraded, was 
designed in the 1970s and first fielded in the 1980s.
    The Navy has an ambitious 20-year, $21 billion shipyard 
infrastructure optimization plan, and has started the process 
to map existing facilities to aid in design. In a recent 
hearing with Secretary Geurts and Vice Admiral Moore, we 
discussed the need for the Navy to resource this plan. We also 
discussed NAVSEA's [Naval Sea Systems Command's] efforts, in 
partnership with the fleet commanders, to level load the 
private shipyards and send a predictable demand signal to 
industry.
    The Army has invested more than $1 billion over the past 10 
years to upgrade its depot facilities, and estimates it will 
cost another $8.3 billion in military construction and 
modernization funds to fully recapitalize. These long-term 
plans require senior leader commitment and sustained resources 
to reach fruition.
    The Air Force, Marine Corps, and NAVAIR [Naval Air Systems 
Command] also have long-term plans in various stages of 
maturity.
    I look forward to learning more detail about the 
investments required to support these efforts.
    For the Army, I look forward to a detailed discussion about 
the size and breakdown of the depot requirement. The committee 
needs better clarity if we are going to support our 
warfighters. The Army has nearly double the carryover work that 
is funded but not finished compared to the next highest 
service. I have some concerns but would broadly like to 
understand if it is an outgrowth of budget uncertainties 
unrelated to process issues or caused by supply chain issues.
    With regards to the Air Force, Navy, and Marine Corps, I 
look forward to hearing about your efforts to stand up some 
organic maintenance capability to support the Joint Strike 
Fighter. We heard testimony last week from Secretary Lord and 
Lieutenant General Fick about F-35 sustainment, which will cost 
more than $1 trillion over its life cycle. They informed the 
committee that you are implementing some work sets to support 
the program. I look forward to hearing about these efforts and 
whether you have sufficient access to intellectual property to 
support this work.
    The trained artisans in our workforce are the key to 
success or failure of the depot enterprise. The services have 
struggled to fill these positions, whether the root cause was 
funding uncertainty or the burdensome hiring process. My 
understanding is that we have made some significant progress, 
but I look forward to hearing from our witnesses about more 
that can be done; for instance, the 6-month cooling off period 
when someone leaves the military and before they can go into 
certain civilian work. I think that is something we should 
discuss. And I think we can address that in our next NDAA 
[National Defense Authorization Act].
    Finally, I am concerned that when we extend the life of 
major defense systems we often pay premiums for old technology 
that is less capable, dependent on a shallow bench of 
suppliers, relies on obsolete manufacturing processes, and is 
not reasonably fuel efficient. Many depots are actively 
involved in reverse engineering old components to address these 
challenges, and we would appreciate our witnesses sharing their 
insights.
    These are tough problems, but in my view they can all be 
addressed if we have the discipline to plan, resource, and 
implement the solutions.
    Thank you, Mr. Chairman. And I yield back.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 35.]
    Mr. Garamendi. Thank you, Ranking Member Lamborn.
    I'd now like to welcome our witnesses:
    Lieutenant General Duane Gamble, Deputy Chief of Staff, G-
4, Department of Army. Welcome.
    Vice Admiral Thomas Moore, Commander, Naval Sea [Systems] 
Command, Department of the Navy. Thank you for being here.
    Vice Admiral Dean Peters, Naval Air Systems Command.
    And Lieutenant General Donald Kirkland, Commander, U.S. Air 
Force Sustainment Center, [at] Air Force Materiel Command.
    And Major General Joseph Shrader, Commanding General, 
Marine Corps Logistics Command.
    Welcome, gentlemen. I will take your testimony. Lieutenant 
General Gamble, if you would proceed, and we will go down the 
line.

 STATEMENT OF LTG DUANE A. GAMBLE, USA, DEPUTY CHIEF OF STAFF, 
                     DEPARTMENT OF THE ARMY

    General Gamble. Yes, sir.
    So, good morning, gentlemen. Good morning, Chairman 
Garamendi. Good morning, Ranking Member Lamborn, other 
distinguished members of the subcommittee. Thank you for this 
opportunity to testify today on the Army's organic industrial 
base or OIB.
    Our Army OIB is decisive, as Ranking Member Lamborn pointed 
out, to our Army strategic readiness. The materiel readiness it 
enables is critical to ensuring our Army can provide the 
responsiveness, the depth, and the capability demanded of us in 
the National Defense Strategy. Your support enables us to 
maintain an OIB that generates Army readiness.
    The main elements of the OIB are three: our skilled 
workforce, our facilities and infrastructure, and our resource 
workload that meets the Army's readiness requirements.
    The backbone of our OIB is our skilled workforce. Our 
ability to hire, attract, and train new talent is essential to 
maintaining the viability and the output of our Army organic 
industrial base. The flexibility you have provided us with 
direct hiring authority has helped us process over 3,500--the 
exact number is 3,560--personnel actions in fiscal year 2019, 
and a total of 4,800, over 4,800 since 2017.
    It has helped us reduce our hiring time from 114 days to 85 
days, which allows our organic industrial base to remain 
competitive with our industry employers seeking the same 
critical skills. So, it is a competition for talent. And the 
authorities you have given us has enabled us to win in that 
competition.
    Much of our organic industrial base infrastructure, as 
already pointed out by Representative Lamborn, is over 50 years 
old, and more than half were built before 1945. In order to 
maintain the appropriate level of readiness, we have developed 
the OIB Infrastructure Master Plan since the last time the Army 
testified before this committee. And we have developed that 
plan to identify and, more importantly, to prioritize our 
projects for our government-owned, government-operated 
facilities. And that plan will carry us over the next 20 years.
    This plan is a forward-looking and forward-thinking 
solution that will keep our organic industrial base facilities 
and infrastructure postured and programmed to sustain Army 
readiness. It is also nested with our Army modernization 
efforts.
    In addition to modernizing our government-owned and 
government-operated facilities, within the last 2 years we have 
had more than doubled investment to modernize our government-
owned and contractor-operated facilities. We have prioritized 
facilities that are single-source suppliers, like Radford Army 
Ammunition Plant and Holston Army Ammunition Plant, and aligned 
our investment with the Futures Command cross-functional team 
priorities to make sure and ensure our modernized requirements 
carry our Army into the future.
    Although it will remain a priority to modernize our 
facilities for the future, readiness today is as essential as 
ever. To meet our Army's current readiness requirements, we 
strategically invest resources in the highest priority and 
focused readiness unit requirements. We workload our depots 
through a delivery process that combines current materiel 
readiness, readiness assessments, near-term COCOM [combatant 
command] requirements, and we resource those priorities with 
focused readiness unit requirements in a workload that combines 
work for our Army, work for other services, and work to support 
foreign military sales. This combined workload serves to 
preserve the artisan skill sets that are critical and unique to 
the Army industrial base.
    As we maintain current readiness and modernize for the 
future, we will continue to hone in on supply availability and 
capacity planning, and implement initiatives like our OIB 
Infrastructure Master Plan. Just like all our Army efforts, 
these efforts will require continued congressional support and 
oversight to be successful.
    I thank each of the distinguished members of the committee 
for holding this hearing, and I look forward to our discussion.
    [The prepared statement of General Gamble can be found in 
the Appendix on page 37.]
    Mr. Garamendi. Thank you, General.
    Vice Admiral Moore.

 STATEMENT OF VADM THOMAS J. MOORE, USN, COMMANDER, NAVAL SEA 
            SYSTEMS COMMAND, DEPARTMENT OF THE NAVY

    Admiral Moore. Thank you, Mr. Chairman. Chairman Garamendi, 
Ranking Member Lamborn, and other distinguished members of the 
committee, thank you for the opportunity to appear before the 
committee today to discuss organic industrial base issues.
    This committee's support for our organic industrial base 
has been critical to the Navy's ability to turn the corner and 
restore readiness to our fleet. Recent on-time performance 
trends in both the public and private sectors are improving; 
however, challenges remain.
    To address these challenges, the Navy has undertaken a 
multi-pronged approach focused on increasing accountability and 
improving productivity in both the public and private 
shipyards. In our four public yards we are growing the capacity 
of the shipyards to meet the workload demand, improving the 
training and productivity of the workforce, and making the 
needed investments in our shipyards to ensure they can support 
our growing needs.
    The Navy is focused on several key lines of effort: growing 
the capacity of the shipyards to match the workload demand; 
improving the training of the workforce; improving the 
productivity of the workforce through innovation and 
improvements to our business processes, in both planning and 
execution; and making needed investments in our shipyards to 
ensure a 21st century shipyard to match our 21st century 
workforce.
    The Navy's four public shipyards have seen a 25 percent 
increase in their planned workload since 2010. To match the 
growth, the Navy has increased the size of our public yards by 
more than 9,000 people, from 27,368 in 2010 to 36,696 employees 
in 2018. This growth was achieved about one year ahead of 
schedule, and is allowing us to stop growth in the backlog of 
work and begin working off that backlog earlier than planned. 
However, the rapid growth of the workforce has resulted in a 
less experienced workforce, where 50 percent have less than 5 
years of experience.
    To get new hires trained more efficiently, the shipyards 
have transformed how they train their new employees through 
learning centers that use both virtual learning tools and 
hands-on work. The net result of these learning centers at the 
shipyards have cut the time to create a productive worker from 
the time they are hired to more than 50 percent over the past 4 
years.
    The Navy is now in the second year of the planned 20-year, 
$21 billion Shipyard Infrastructure Optimization Plan [SIOP] 
that will fully transform shipyards originally designed and 
laid out to support building ships of sail and coal into 21st 
century shipyards dedicated to executing complex maintenance 
availabilities on the Navy's nuclear-powered aircraft carriers 
and submarines. Fully executed, SIOP will deliver required dry-
dock repairs and upgrades to support both current and future 
classes of ships, optimize workflow within the shipyards 
through significant changes to the physical layout, and 
recapitalize obsolete capital equipment with modern machines 
that will dramatically increase productivity and safety.
    The Government Accountability Office has recently reviewed 
the SIOP plan and identified opportunities for the Navy to 
enhance reliability, to improve cost estimating, and better 
define the roles and responsibilities to the shipyards. The 
Navy is taking steps to implement these recommendations, 
executing modeling and simulation efforts to inform area 
development plans at specific shipyards, and provide a more 
complete costimate for executing SIOP.
    The committee's continued support for SIOP is greatly 
appreciated.
    Mr. Chairman, the Navy fully understands that on-time 
delivery of ships and submarines out of maintenance 
availabilities is a national security imperative. The 
Department has taken a holistic approach to ensure both our 
public and private yards have the information, people, and 
equipment needed to maintain the world's greatest navy. The 
Navy will continue to work with the Congress and our industry 
partners to address our challenges and to efficiently maintain 
and modernize the Navy's growing fleet by growing the capacity 
and capability of the organic industrial base.
    Thank you again for the opportunity to appear today. I look 
forward to your questions.
    [The joint prepared statement of Admiral Moore and Admiral 
Peters can be found in the Appendix on page 43.]
    Mr. Garamendi. Thank you, Admiral.
    Admiral Peters.

  STATEMENT OF VADM G. DEAN PETERS, USN, COMMANDER, NAVAL AIR 
            SYSTEMS COMMAND, DEPARTMENT OF THE NAVY

    Admiral Peters. Mr. Chairman, Ranking Member Lamborn, 
distinguished members of the subcommittee, good morning, and 
thank you for the opportunity to discuss naval aviation 
readiness and the health of our organic industrial base.
    NAVAIR's industrial workforce and infrastructure remain my 
top priority. Since my last testimony in June of 2018, naval 
aviation has seen modest improvements in readiness through 
comprehensive reforms, sponsored by naval aviation's 3-stars: 
the air boss, Vice Admiral Miller; the Deputy Commandant for 
Aviation, Lieutenant General Rudder; and myself.
    We report quarterly to the Vice Chief of Naval Operations, 
the fleet commanders, and the Secretariat on our performance to 
plan that ensures transparency and provides an opportunity to 
share lessons across communities.
    Our improvements are indicated by multiple occurrences of 
80 percent mission-capable rates for Hornets, Super Hornets, 
and Growler aircraft, and improvements across all of our 
platforms. For Super Hornets specifically, we surged to 700--
or, excuse me, 372 mission-capable aircraft on 30 September, 
after many years of averaging approximately 250 to 260 mission-
capable aircraft.
    Our aircraft depot lines and component repair lines are now 
delivering more effective and reliable products, with reduced 
turnaround times and significant improvements in quality.
    Instead of merely completing the minimum repair spec and 
pushing aircraft back to the fleet with remaining maintenance, 
we are now accomplishing, with the fleet's partnership, the 
return of fully restored aircraft ready to promptly support 
squadron flight schedules. Foundational changes now in place at 
our depots include an apprenticeship program, an enterprise 
quality management system, and an investment strategy that 
targets modernization.
    The next steps for naval aviation involve expanding these 
reforms to all of our depot lines and to our intermediate-level 
maintenance sites. We will also begin implementation of the 
infrastructure optimization plan, as detailed in the interim 
report delivered to Congress in April of this year.
    Naval aviation leadership looks forward to working with 
this subcommittee and the larger Congress to achieve and 
sustain a ready and capable fleet. And we very much appreciate 
your continued support of our sailors and Marines.
    I look forward to your questions.
    Mr. Garamendi. Thank you, Admiral.
    General Kirkland.

 STATEMENT OF LT GEN DONALD E. KIRKLAND, USAF, COMMANDER, AIR 
     FORCE SUSTAINMENT CENTER, AIR FORCE MATERIEL COMMAND, 
                  DEPARTMENT OF THE AIR FORCE

    General Kirkland. Good morning, Chairman Garamendi, Ranking 
Member Lamborn, distinguished members of the subcommittee. 
Thank you for the opportunity to update you on the Air Force's 
organic industrial base. On behalf of our Secretary, the 
Honorable Barbara Barrett, and our Chief of Staff David 
Goldfein, thank you for your continued support and demonstrated 
commitment to our military and civilian airmen, families, and 
veterans.
    As you will attest in my written statement, the United 
States Air Force has relied upon a strong organic industrial 
base to deliver air power in support of our National Defense 
Strategy. We are proud of the capabilities our Air Force brings 
to the organic industrial base. Our logistics enterprise 
effectively uses existing infrastructure across our three 
depots and two supply chain wings to provide cost-effective 
readiness for a range of legacy weapons systems, while 
posturing for the future.
    Last month, at Tinker Air Force Base, we opened the first 
hangar of a depot campus dedicated to the KC-46 Pegasus 
refueling aircraft. We continue to expand F-35 Joint Strike 
Fighter aircraft depot and commodities maintenance at our Ogden 
Air Logistics Complex. And in middle Georgia, our F-35 avionics 
repair is expanding at Warner Robins.
    Looking ahead, our team is already making preparations for 
depot support for the B-21 Raider and Ground Based Strategic 
Deterrent.
    Even so, readiness and sustainment challenges driven by 
legacy weapons systems are complicated by an aging 
infrastructure footprint, a diminishing supply and 
manufacturing base, and a Federal workforce hiring process that 
is improving but not yet conducive to supporting today's 
environment.
    As rightly directed by title 10, U.S. Code, it is a 
national imperative to have a robust industrial base supporting 
the nation's weapons systems. Without investments that ensure 
lethality, maintain readiness, properly fund and train our 
personnel, and deliver necessary infrastructure, we risk losing 
our advantage. To optimize our depot infrastructure over the 
coming years, our current and near-term 6 percent funding 
sources will not by themselves achieve and maintain the depot 
capacity and capability necessary.
    Last March, the Air Force submitted to Congress an initial 
report on our organic industrial base infrastructure. This 
study made clear that even as we smartly use current 
investments, over the next 20 years we will need resources 
above current thresholds to modernize across four major 
dimensions of our industrial base. As mentioned in my written 
statement, we have already started a second, more detailed 
analysis of depot infrastructure and will report out in late 
fiscal year 2020.
    As we respond to a diminishing supply and manufacturing 
base to support aging fleets, we are accelerating the use of 
predictive analytics such as condition based maintenance-plus 
to minimize the time a weapons system is unavailable due to 
unscheduled maintenance. The Air Force Sustainment Center works 
closely with supported weapon systems program offices to ensure 
the data learned for predictive analytics are baked into supply 
forecasting, generating longer term efficiencies.
    Regarding our civilian workforce hiring and development, we 
greatly benefit from the hiring tools and authorities that 
Congress has provided. These are necessary to stay competitive 
with our defense industry peers. Thank you for providing these 
authorities and continued support of expanding their use. In 
fiscal year 2019 we hired 74 percent of all hires using direct 
hiring authority. This is making a difference to our workforce.
    In every instance or crisis, the defense organic industrial 
base provides solutions to meet unanticipated demands. The Air 
Force will need help from Congress with continued investments 
to meet the needs of an increasingly sophisticated and 
contested battlespace in the 21st century. We are making 
generational decisions in our depots now. The Air Force needs 
stable and predictable budgets to maintain and modernize our 
critical logistics and sustainment capabilities. Consistent 
funding underwrites our mandate to produce readiness that 
guarantees our service's ability to fly, fight, and win.
    Thank you. And I look forward to your questions.
    [The prepared statement of General Kirkland can be found in 
the Appendix on page 52.]
    Mr. Garamendi. Thank you, General.
    General Shrader.

   STATEMENT OF MAJ GEN JOSEPH F. SHRADER, USMC, COMMANDING 
 GENERAL, MARINE CORPS LOGISTICS COMMAND, HEADQUARTERS MARINE 
                             CORPS

    General Shrader. Chairman Garamendi, Ranking Member 
Lamborn, and distinguished members of the House Armed Services 
Subcommittee on Readiness, thank you for the opportunity to 
testify on this important topic.
    Our Commandant's vision for the Marine Corps is to be 
manned, trained, and equipped as the world's premier naval 
expeditionary force in readiness, forward-postured with the 
Navy's fleets to deter conflict and respond to crises, and to 
be globally recognized as an elite corps of marines of 
exceptional talent.
    A ready and modern organic industrial base plays a key role 
in achieving the Commandant's vision. Accordingly, we do have a 
long-term Organic Industrial Base Modernization Plan to repair, 
repurpose, consolidate, and construct new facilities across our 
depot, and tear down those facilities deemed too old and no 
longer relevant.
    We are pursuing innovative and state-of-the-art technology, 
such as robotics, on our main production lines and sub-shops. 
Also, 3D printing and additive manufacturing to augment the 
supply chain and extend our operational reach.
    Marine Corps Logistics Base Albany in Georgia was also 
recently selected to be one of the first of four DOD locations 
to receive 5G bandwidth capability, which will enable us to 
employ more capable, automated, and IT [information technology] 
maintenance management solutions. And of note is our base at 
Albany is also pursuing an aggressive goal to become a net-zero 
energy consumer through employing renewable and resilient 
technologies such as borehole thermal energy storage systems 
and ground-source heat pumps.
    Finally, and most important, we are improving our ability 
to recruit, train, and retain the depots' next generation 
workforce.
    So, again, I thank you for this opportunity to talk about 
the Marine Corps organic industrial base readiness, and I will 
look forward to your questions.
    [The prepared statement of General Shrader can be found in 
the Appendix on page 63.]
    Mr. Garamendi. Thank you. Gentlemen, thank you very much 
for your testimony. We will now do a round of questions. We 
will hold to the 5-minute normal rule of our committee.
    Generals, each of you have developed a plan to address the 
concerns of the organic industrial base, modernization of it. 
And, presumably, that plan takes into account the new equipment 
that you will be receiving, for example, the Army Modernization 
Program, the Navy-Air Force F-35, so forth. We will be watching 
that very, very carefully.
    At the same time, you have legacy equipment, some of which 
has been around for more than a few decades. We can talk about 
the B-52. And I am sure there are plenty of track vehicles in 
the Army that probably are of a similar age. So, the 
fundamental question of this particular hearing: Is your 
organic industrial base plan sufficient to take care of the 
past older equipment, ships, aircraft, as well as the future? 
That is what we are going to be looking at. And we are going to 
go at it in detail.
    We have received from all of you over the last several--
last year, your plan. And you can be assured that this 
committee will go into it in detail.
    Now, let's start with all of you. And I want to just hear 
your commitment to the industrial base, to the plan that you 
have before us, and I put it very clearly, in the new 
President's budget will there be the money to support that 
plan?
    Let's start with the Marine Corps and we will go left to 
right, or left to right as you may view it. General Shrader.
    General Shrader. Yes, sir. Thank you.
    Sir, we submitted, the Marine Corps submitted, the 
Commandant submitted this past July our plan for improving the 
organic industrial base facilities. It is a 25-year plan. It is 
a $1.9 billion price tag. It is to be executed in three phases.
    We are right now executing the first phase. The first phase 
calls for a 7-year period. And in that first 7 years we are 
getting after process workflows, we are also repurposing some 
of the facilities that we have, and we are also doing 
consolidation and rebuilding.
    Once we get to a point where we have the capacity, then we 
can turn to tearing down old facilities that I talked about 
before.
    Mr. Garamendi. I am going to cut it short. I am going to 
try to stay to 5 minutes.
    General Shrader. Yes, sir.
    Mr. Garamendi. So maybe we will do about 1 minute each, and 
that will put me well past the 5-minute limit.
    General Shrader. Aye, sir. So, whether, whether we are 
going to fund it, sir, I think it is a risk, it is a balancing 
act because we are funded--the Marine Corps allocates money 
across all MILCON [military construction] projects, so it is a 
risk equation.
    What I would offer, sir, last, is facility modernization is 
a function of equipment modernization. The more money we can 
put into equipment modernization, the less need for us to 
maintain equipment longer. So, if we are not fielding new 
equipment, it stretches out the life cycle of that equipment. 
So, we have to make sure that we can find that balance.
    Mr. Garamendi. You shall see. Exactly.
    General Shrader. Yes, sir.
    Mr. Garamendi. General Kirkland.
    General Kirkland. Chairman Garamendi, thank you for that 
question.
    Sir, you are aware the report we sent over from the Air 
Force back in March lays out notionally a $26 billion 
investment strategy over 20 years. That is phased from the near 
term to, if you will, catch up, and then allows to keep up 
while we posture for depot infrastructure of the future.
    That lays out across four categories: depot equipment, 
technology, IT infrastructure, industrial software, facilities 
for overhaul and the final assembly, as well as repair nodes 
and hidden infrastructure. These are essential to our long-term 
viability.
    Meanwhile, Chairman, we are making the most of the 
infrastructure we do have with our world-class workforce. We, 
to support operational customers we rely a lot on our processes 
right now to mitigate any challenges we have with equipment or 
facilities.
    And in looking ahead, sir, this year we are going to do a 
detailed analysis that will result in a more refined 20-year 
strategy with an implementation plan and resulting guidance.
    Mr. Garamendi. Excuse me, gentlemen.
    General Kirkland. Yes, sir.
    Mr. Garamendi. The specific question is, we know your, we 
have seen your plans, we know--we want to know if you have 
committed to carrying out that plan. In other words, will the 
money for the plan implementation be in the upcoming budget?
    General Kirkland. Chairman, we are using this process to 
inform our choices over the next, this next planning cycle.
    Mr. Garamendi. Okay.
    General Kirkland. And I would expect that this process that 
the Air Force will go through in fiscal year 2021 form those 
choices through our corporate process.
    Mr. Garamendi. For all of you, you should be getting the 
gist of where I am going. Happy talk. I want real commitment, 
meaning, are you going to put the money and the effort into 
carrying out the plan? Okay?
    Let's continue on. Mr. Peters, Admiral.
    Admiral Peters. Thank you, Mr. Chairman. Yes, the Navy is 
committed to the aviation infrastructure optimization plan, 
$3.5 billion: $1 billion in sustainment, restoration, 
modernization [SRM] funding; $1 billion in capital equipment 
modernization; and $1.5 billion for MILCON.
    I will speak to the commitment in terms of the first two. 
We are taking actions and have support from the Navy for the 
SRM funding, and also partial funding for the equipment 
modernization. Some of that will come through appropriated 
funds, some will come through our rate structure.
    Thank you, sir.
    Mr. Garamendi. Thank you.
    Admiral Moore.
    Admiral Moore. Mr. Chairman, thank you. Yes, the Navy's 
PB20 [President's budget for fiscal year 2020] submit does 
support the plan. It is a good plan. It addresses both current 
ships that we have, and also the need to get after setting the 
depots up for success in the new platform that is coming down 
the road: Ford-class carriers, Virginia-class submarine, and 
Columbia.
    But I would note this is not a one-and-done plan. We dug 
ourselves a readiness hole over a number of years, and one year 
is not going to fix this. We have to stick to the plan over the 
next couple years in order to be successful.
    Mr. Garamendi. We will look at the budget and see if you 
are actually going to start.
    General Gamble. Chairman, the Army is also committed to 
Army readiness. We recognize that legacy systems, or our 
enduring systems as you mentioned, are part of our Army's 
ability to win. The truth is that we will not modernize the 
entire Army. We will have legacy track systems in our Army for 
years to come.
    Our 2020 budget includes top priorities of maintaining 
these enduring systems. It also includes money for industrial 
base modernization.
    Among those systems are--we are leveraging the uniqueness 
of our industrial base to convert UH-60 helicopters from Lima 
to Victor models for the Army National Guard. That will save us 
money in the long term. We won't be buying new production for 
those systems. So we are leveraging our industrial base and 
resourcing our industrial base to do important work for Army 
readiness.
    Mr. Garamendi. You are going to spend $1.6 billion on depot 
maintenance in 2020?
    General Gamble. Our depot maintenance budget in 2020 is $2 
billion, just north of $2 billion. It reflects 80 percent of 
our validated depot requirement. That is up from last year 
where I think we funded 78 percent of our requirement last 
year.
    Mr. Garamendi. Thank you.
    Gentlemen, you should be able by now to understand where we 
are going here with this committee. We are going to hold you 
accountable to the plan. We will first make sure the plan 
achieves the goal, and then we will make sure that you carry it 
out.
    With that, I yield to Mr. Lamborn.
    Mr. Lamborn. Well, thank you, Mr. Chairman. And I want to 
stress that this is a bipartisan concern. I am with the 
chairman 100 percent on making sure that we have plans and that 
we are funding those plans, that it is a high enough priority 
to do so. And if we are not funding and making the plans and 
funding them properly, then it is really obviously not a 
priority.
    I know there are many needs, many urgent needs that the big 
services have to deal with. But this is the future; we have to 
make sure that the future is taken care of.
    So, I will be watching with the chairman closely to make 
sure that we do accomplish this. So, thank you for that.
    And I would like to address the Army in particular now, 
partly because the depot carryover numbers are so big. 
According to a July 2019 GAO report, the Navy, Marine Corps, 
and Air Force averaged less than 6 months of carryover worth 
$1.0 billion, $0.2 billion, and $1.9 billion per year 
respectively from the period 2007 through 2018. And the Army 
averaged $4.3 billion of carryover during the same timeframe.
    So, what can you tell me, General Gamble, about what the 
Army is doing to address its particular depot maintenance 
requirements?
    General Gamble. Yes, sir. I appreciate your question.
    With respect to the Army carryover, I think it is important 
to point out that the Army's system, our enterprise resource 
system is different from the other services. So, the Army 
carries with that carryover the cost of materiel. We are not, 
we don't have the flexibility to eliminate that. You know, we 
bill the whole. The entire work is billed when it is done, when 
it is complete.
    So, when there is a supply chain issue, if there is a lot 
of bill of materials, that encumbers our carryover. So, our 
carryovers compared to the other services, while I won't argue, 
sir, we do have a carryover problem in the Army, it is a little 
out of--it is a little bit of apples and oranges. It is still 
carryover but I don't know that it gives you total insight by 
comparing our carryover to the other services.
    Our carryover is down this year. It is in excess of 6 
months. You know, GAO just reported on carryover. And their 
determination, frankly, I agree with their determination, any 
carryover calculation should inform, should be quality I think 
is the words GAO used, but I think it should be decisionable 
information that allows us to do something about the carryover.
    And as you pointed out in your opening comments, carryover 
is a function of either the supply chain or our budget. I would 
add, probably add that forecasting is part of that carryover, 
too. So, what the Army is doing is General Perna, the Army 
Materiel commander who commands our depots, has reserved at his 
level taking work late in the year. Because, of course, if you 
take work late in the year, your ability to accomplish that 
work, that OMA [Operation and Maintenance, Army]-funded work in 
the year, starts to diminish. So, he has reserved that at his 
level and his executive deputy commander level, and that is 
making a difference.
    You know, what leaders check, just like the oversight of 
this committee, but leaders check, people do. And he is 
checking. So, we have seen carryover come down in that regard.
    I will offer one last comment on carryover. I believe that 
the carryover calculation does not lead us to those, the 
current carryover calculation--GAO highlights this in their 
report--does not lead us to decisionable information. To some 
degree the carryover has been weaponized. It is a divining rod 
to find money to move to other programs.
    I am not so sure that is a good, a good trend. I would 
offer that if the carryover calculation, whatever we come up 
with OSD [Office of the Secretary of Defense], leads us to make 
decisions on depot capacity, increasing or decreasing capacity, 
whether it is workforce or infrastructure, that that, that 
would be a good use for carryover.
    And then my final comment, sir, is that today the carryover 
does help us bridge appropriations. Today at Anniston Army 
Depot, for example, in Congressman Rogers' district, 89 percent 
of the work being done today at Anniston Army Depot is 
carryover. The remaining 11 percent is Army Working Capital 
Fund work.
    The amount of OMA work being done today, first quarter at 
our Army depots, is very, very small because of the CR 
[continuing resolution]. And so, units are husbanding their 
resources, waiting. And as the appropriation comes to fruition, 
that money will start infusing into the depot. But the longer 
that that goes on, the more, more chance that we will have 
carry--that will carry over in the next FY [fiscal year].
    I hope I answered your question.
    Mr. Garamendi. Okay. Ranking Member Lamborn.
    Mr. Lamborn. Well, then I will make this real fast. I will 
make this----
    Mr. Garamendi. It is okay. Take your time.
    Mr. Lamborn. Please make this a yes or no answer.
    General Kirkland, we talked about this the other day, but 
getting rid of the 180-day cooling off period, at least for GS-
1 through 13, not 14 and 15, if that were to be done in the 
next year's NDAA--and I know there is a Senate bill also 
addressing this by Senator Lankford--would you, would you like 
to have that accomplished?
    And just go down the line, yes or no.
    General Gamble. Yes, sir.
    Admiral Moore. Yes, sir.
    Mr. Lamborn. Okay. Wait, wait. We will stop right here and 
I will let Austin Scott address that as well. Okay, he is 
kidding. Okay, let's go on down the line.
    Admiral Peters. Yes, sir. We would support.
    General Kirkland. Yes, sir.
    General Shrader. Yes, sir.
    Mr. Garamendi. Okay, thank you.
    Mr. Chairman, I yield back.
    Mr. Garamendi. Thank you. We need a better understanding of 
the carryover. I think that I know that I don't understand 
exactly how the Army calculates the carryover. We will get into 
that in more detail. We may be misunderstanding or not 
understanding the way in which you calculate it.
    Ms. Houlahan.
    Ms. Houlahan. Thank you, Chairman. And thank you, 
gentlemen, for coming. My questions are about workforce.
    Congress has provided you direct hiring authority for depot 
work to expedite hiring, but this authority doesn't seem to 
have been terribly successful in filling skill gaps that we 
still see. Do you think it is possible or likely that the 
skills and workforce gaps that we see persist in part because 
people with these skills are seeking to be hired full-time and 
not in term or temporary hire, is my first question?
    And to what degree is it possible that reliance on term or 
temporary hires is contributing to skills gaps for an enduring 
workforce?
    And anybody can start, please.
    Admiral Moore. Well, first of all, I would say from the 
Navy's perspective we are a huge fan of direct hiring 
authority, and it has helped me significantly in the depots. 
That is why we would be able to hire, you know, as many people 
as we have over the last couple years.
    We don't use temps at the naval shipyards, so that is not 
an issue for me. So the hiring authority is really something 
that we would hope that you would keep there. And it has made 
a, it has made a difference.
    You know, our challenge in the naval depots is, you know, 
we are in competition with that talent with the private sector 
as well on the new construction side, et cetera. Welding 
skills, you know, pipefitting skills, electrical skills are in 
competition throughout the homebuilding industry, et cetera. So 
anything, tools that we can have to get people in the door 
quicker and pay them well will help us.
    So, I appreciate----
    Ms. Houlahan. That actually was going to be my follow-up 
question for you. We heard from a hearing prior to this that 
most people have less than 5 years of experience who are 
working at our shipyards. And to what degree can you talk--and 
I will follow up on the other question--but about how we can be 
more competitive with the civilian economy?
    Do you have any examples of places where we have been 
successful in marrying up with vocational or trade schools, or 
that sort of thing that has been helpful in being competitive?
    Admiral Moore. Yeah. That is a fantastic question. So, 
almost every one of my major depots is partnering with the 
State to have hiring fairs, have apprentice schools. Norfolk 
Naval Shipyard and Puget Sound Naval Shipyards specifically 
have apprentice schools, which is equivalent to a vocational 
school. They get a degree. The competition to get into those 
schools is extremely competitive, which tells me that people 
want to get in there.
    And once we get people in the door and we can get them past 
that 5-year point, we tend to keep them for a long period of 
time. And so I think that the attraction of being trained and 
then having a good salary and a job that you know you're going 
to be able to have for a long period of time is very 
attractive. So, it has helped us in this competition with the 
private sector.
    Ms. Houlahan. Would any of you other gentlemen like to 
comment on my, or answer my first question? Thank you, sir.
    General Gamble. Congresswoman, the Army does use temps and 
terms at our depots and our ammunition plants. And so, I do 
agree that most people are, you know, would prefer a permanent 
employment over a temporary or term employment.
    We found the temporary or term employment to be a good tool 
to expand and contract, in some cases, the workforce based on 
workload. But in a more positive way it gives us the ability to 
identify talent, and then use the direct hiring authority this 
committee has given us to hire that talent.
    The direct hiring authority, the first part of your 
question, has been absolutely decisive for the last couple 
years. The truth is, it took us a couple years to implement, 
fully implement that authority. But we hit our stride this last 
year, in fiscal year 2019, hiring over 3,500 people.
    Ms. Houlahan. Is there anything that we could be doing to 
make it even better for you?
    General Gamble. I think Representative Lamborn's proposal 
or suggestion to limit the cooling-off period would help 
somewhat. All the talent is not in the service, obviously. And 
just like the Navy, all our depots and arsenals are partnered 
with the local school systems, whether those are post-graduate 
school systems, or undergraduate systems, or secondary school 
systems. That represents, you know, manifests itself in 
internships, et cetera, at our depots.
    So there are different streams of talent coming into the 
Army. The direct hiring authority has allowed us to be compet--
remain competitive with industry.
    Ms. Houlahan. I have about 50 seconds left. Would anybody 
else like to contribute?
    General Shrader. Ma'am, the Marine Corps is a, we are an 
advocate of the direct hire authority [DHA], and we have used 
it.
    Regarding terms and temps, we also use that kind of a warm 
start. But I would offer that there is a value to permanency 
all its own. And so I think that a lot of folks that we are 
competing for, they are looking for that permanent position. 
But all those are tools that we look to.
    A modernized depot is something that attracts our young 
people that come out of college. They want to work someplace 
that is going to have modern technology that they can apply 
their skills to. So it is all, this all goes hand in glove.
    Ms. Houlahan. Sure. Understood.
    I have about 7 seconds left, which is plenty; right? I 
would love to hear from you.
    General Kirkland. Ma'am, I will----
    Mr. Garamendi. Take your time.
    Ms. Houlahan. Thank you.
    General Kirkland. So, ma'am, particularly I will just talk 
for Air Force Sustainment Center. We use it at every level of 
our workforce. And I will highlight on the upper end for our 
trained engineers and software folks, which is for us a growing 
enterprise. We have north of 4,400 software engineers now 
working for our Sustainment Center.
    DHA has been a tremendous tool to give them an on-the-spot 
job offer. And once they join, they like what they are doing, 
and our retention rate reflects that.
    Ms. Houlahan. Thank you. And I actually served in the Air 
Force as an engineer, so I very much appreciate that comment. 
Thank you.
    Mr. Garamendi. Thank you very much.
    There is a whole series of questions here that we want to 
get into on the hiring part of it. And, undoubtedly, my 
colleagues will carry on with it.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I wasn't joking when I said Mr. Lamborn stole my question. 
He actually was looking at my notes.
    Mr. Lamborn. Then it is time for you to ask it.
    Mr. Scott. He was looking at my notes and his time was 
expired.
    The National Defense Authorization Act, hopefully we will 
have a piece of legislation in the next several days or weeks. 
There is an opportunity to resolve this issue I believe once 
and for all in the upcoming National Defense Authorization Act.
    Some have suggested that it should apply to O-6, or the 
waiver should be for O-6 and below. Some of--General Kirkland, 
you suggested the GS-13 and below. I am indifferent which route 
we go. My suggestion would be that all of the services request 
the same thing.
    So, real quick, is everybody on board with GS-13 and below? 
Everybody is good with GS-13 and below?
    [A show of hands.]
    Mr. Scott. I think the committee----
    Mr. Garamendi. I think there was four hands up. And so the 
answer to your question is they have agreed with you.
    Mr. Scott. Okay. And I think the majority of the committee 
agrees on this. So, I would hope that as the National Defense 
Authorization Act comes forward this is something that we can 
resolve.
    My understanding is that this prohibition applies to full-
time Guard and Reserve as well, as they retire. My question, 
and I will just ask you, General Kirkland, for our part-time 
Guard and Reserve, do we have hiring restrictions on them as 
well or is it only for full-time Guard and Reserve as they----
    General Kirkland. Congressman, I would need to check on 
that and make sure I am giving you the right answer. I would 
like to take that for the record, please.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Scott. Okay. I think that is something that we, we can 
research as well.
    And--but full-time Guard and Reserve as they approach their 
retirement, my understanding is the 180 days does apply to 
them. I am just making sure we find the right standard with 
regard to all of the different types of services that people 
have. Hopefully, that gets resolved.
    General Gamble, I heard as you discussed the differing 
accounting methods by service, you said it makes one, one 
service's carryover look worse than another, another branch's 
carryover would look. From our standpoint, it makes it hard, 
harder I think for Congress to do its oversight role.
    I know it would be a big move to get everybody to the same 
accounting standard on the carryover, but I do believe that is 
something that we should look at because it is hard for us to 
see relatively who is doing better. But would the different 
accounting methods--and this is my specific question--with 
regard to the Defense Logistics Agency [DLA] for the different 
services, do the differing accounting methods by service create 
confusion at the Defense Logistics Agency?
    General Gamble. Sir, from the Army perspective I believe 
not. I believe the answer is no.
    The carryover calculation is the same for all the services. 
But our resource, our enterprise resource system drives us to 
not be able to bank, if you will, those, the costs. So, the 
cost of material rolls forward in the way our ERP [enterprise 
resource planning] does.
    And then with respect to DLA, I think maybe the heart of 
your question has to do with the forecasting of the organic 
industrial base requirements for DLA.
    Mr. Scott. The sourcing of parts?
    General Gamble. Yes, sir. Forecasting our work as it 
translates to the supply chain that DLA is responsible for.
    We believe, one, DLA gives us exquisite support but, two, 
we believe we have a fairly solid forecasting process with DLA 
for our organic industrial base workload.
    I hope I answered your question, sir.
    Mr. Scott. General Kirkland. Admiral Peters.
    Admiral Peters. Sir, if I could just say, I mentioned from 
the carryover standpoint there is a little bit of an 
artificiality here that I think is recognized that, you know, 
because you heard the Army experience that they are not even 
inducting components that need to be repaired because of this, 
the optic associated with carryover, we need to realize that 
there are components that break during the course of the year. 
And they are going to take longer than a few months to fix 
sometimes.
    Mr. Scott. My time is expired. I guess my concern is, 
Admiral Peters, this is kind of what you are getting to, is the 
current system forced to gaming of the numbers, and which gives 
us a false, a false read on what is actually happening.
    Gentlemen, I appreciate your service. I will yield my time.
    Mr. Garamendi. Thank you, Mr. Scott.
    The metrics by which you measure are metrics that we 
observe and hold you accountable for. We have always, at least 
in my experience, is we do question the appropriateness of the 
metrics and whether they actually give us the--give you and us 
a clear picture of how the maintenance is occurring.
    Ms. Horn, you are next.
    Ms. Horn. Thank you, Chairman Garamendi. And thank you to 
all of you for being here.
    I have several questions along those same lines. And I want 
to start with General Kirkland because I think we are talking 
about a couple of things: ongoing maintenance, investing, and 
how we sustain current systems through the process.
    So, General Kirkland, I know that Tinker has done a lot 
to--and I have been very impressed with the maintenance and 
what you have been able to do to maintain some of our legacy 
aircraft, the KC-135s and the B-2s. And as these, as these 
planes and other legacy equipment gets older there are growing 
issues, I know, with supplies and parts on these legacy 
aircraft.
    So, can you speak to a couple of things: the use of 
predictive maintenance and how that is enabling the maintaining 
of these legacy systems; and the role of public/private 
partnerships in the organic industrial base, and how that is 
helping to maintain in the interim?
    General Kirkland. Yes, ma'am. Congresswoman, thank you for 
the question.
    So, ma'am, you highlighted Tinker. And I will just start 
there. With regard to diminishing supply and our parts 
constraints, two approaches really. First is to partner more 
in-depth with our industry teammates on who we rely. We do that 
often through the Defense Logistics Agency, who does provide 
fantastic support to us.
    We benefit from a vehicle we are calling Captains of 
Industry where we have an omnibus agreement for a higher level 
supply support. In fact, we have one that works very well with 
GE [General Electric]. And we are pursuing the same 
relationship with other prime vendors.
    Where and when we can't get the part, we often rely on 
reverse engineering. And there, ma'am, we are doing that across 
all three of our depots, in Utah, Oklahoma, and Georgia. But by 
and large the reverse engineering provides us a technical 
package which we can then manufacture the part, either organic 
or outsource that to commercial industry where that might make 
sense.
    And that works really well for small batches. And we have 
learned can keep a part, can return a part in days or weeks 
instead of months or years, and get an airplane either through 
the depot line or out in the field and back in business. And 
that has been a tremendous thing.
    And, ma'am, along the way then we rely heavily on process 
to lean out our operations there. And we are quite proud of the 
workforce that is doing that.
    Ms. Horn. Thank you. And to follow up on that, turning to 
the direct hiring authority and the need to maintain the 
organic industrial base as a critical piece of this, I want to 
revisit the ability to retain the civilian workforce, and 
having that base for things like reverse engineering as we are 
going through this process and assessing how the process 
improvements and the incentives of being able to reverse 
engineer or keep people there is connected to the direct hire 
authority, and what else is needed.
    General Kirkland. So, ma'am, with respect to retention, I 
would offer that simply by having a steady influx of trained 
personnel, personnel we can train in order to keep the 
production lines going, that has morale increase. And as we put 
more and more work into the same facilities and same 
workforces, that has a beneficial effect of keeping every 
employee gainfully, gainfully employed, and providing upward 
mobility with supervisory opportunities. And that has been our, 
that has been our experience.
    With respect to engineers, I will just highlight that 
across our enterprise, our software engineers, we have an 
attrition about 7 to 9 percent annually. And that is right, is 
right there with industry. And so that is even as we grow the 
enterprise, about 6 percent a year.
    Ms. Horn. Thank you. Would any--I have just under a minute, 
any of the rest of you like to speak to that?
    General Shrader. Congresswoman, I would say on the retain 
piece, a challenging, challenging work environment where you 
have the ability to innovate: 3D printing, additive 
manufacturing. When you go down to visit our engineers, I mean, 
they, they look forward to coming to work every day to work 
with that and get after some of the obsolescence challenges 
that we have and that we are getting after with 3D 
manufacturing.
    And it is just, it all boils down to having a good 
environment to work in, which means modern facilities. So, that 
is really a big factor in retaining.
    Ms. Horn. Thank you, General Shrader. Just a couple more 
moments, a few more seconds, any additions?
    Thank you. I yield back.
    Mr. Garamendi. Thank you. The Marine Corps and the Air 
Force are receiving substantial new funds to the emergency 
appropriations for the rebuilding of some of your facilities, 
not so much for the Air Force on the organic side, but the 
Marines most definitely. We will be looking at that, 
particularly Cherry Point, and how you are going to be working 
on that, your plans, how you will be spending that emergency 
appropriation money to update and rebuild that facility as a 
modern organic industrial base.
    No response necessary, just know that we are watching.
    Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman. And thanks to all of 
you for being here.
    I don't know, this is one of those questions I really don't 
have an answer to. Is there a percentage of your civilian 
workforce that is unionized? Okay. Do those unions have 
apprentice programs or do you have apprentice programs in place 
to actually, you know, we call it in some cases OJT [on-the-job 
training], but could you, any one of you speak to the successes 
you have had in apprentice programs aboard any of your 
facilities?
    Admiral Peters. I can start, sir. Just, we have just 
recently established an apprenticeship program. It is highly 
competitive. We started 148 of our artisans in this 
apprenticeship program. It is 4 years, with a 2-year payback, 
so that helps on the retention side also. But it also provides 
some cross-training opportunities. And we have had, you know, 
1,000 applicants for the 148 slots that we started this year. 
And 168 in fiscal year 2020 is the plan.
    So it has been very effective for us.
    Mr. Bergman. And is this in conjunction with the union?
    Admiral Peters. Absolutely.
    Mr. Bergman. Good. You know, because, you know, good unions 
really, really, really add value to any company or any entity. 
That is good to see.
    Carryover funds. Let's just say what I heard here was the 
little tricks: if you do this, you get to that, or, you know, 
whatever, and there is kind of potential for gaming the system. 
Let's just say flat out that you got to reinvest as you saw fit 
any money you saved by, let's say, shortening the transition 
from legacy to next gen, or whatever, in that sustainment 
period.
    In a time of limited funding, which we are in a time of 
limited funding when you think about all the things we, as the 
Federal Government, do, could you come up with a business plan 
that, as Jim Collins, Good to Great, would say, stop doing the 
things you don't need to continue spending money on, knowing 
that you got to keep that money to reinvest it in other things, 
could you actually present to this committee or the committee 
as a whole on armed services where, you know, how much? Just 
give us a--I don't care where you do it, you just tell us, give 
us a dollar figure? Could you do that, I mean over time, 6 
months, whatever, before we do the next NDAA?
    Admiral Peters. I will just add, sir, very quickly, we 
could do that. As part of our working capital funds we reinvest 
back into the plants. And we are committed to 6 percent. Our 
challenge has been meeting that 6 percent each year. But we are 
starting to be able to do that. Just in fiscal year 2019 we 
accomplished it, and going forward we intend to accomplish it 
also.
    Mr. Bergman. It is, you know, again, if you were a business 
and you were paying your, not even your stockholders, just say 
your employees dividends based on their performance, and their 
performance, part of their performance plan was to figure out 
how they could do their job not only better but cut unnecessary 
spending where it no longer made sense. Okay. And that is, if 
you have that in your culture I think it would--and I am not 
going to speak for the committee--but to hear it from you where 
you can do better and allow the money to be wisely spent 
because you are the managers of it, that is a plus for all of 
us here.
    So I will, Mr. Chairman, I will give you back a minute. And 
I yield. Thank you very much.
    Mr. Garamendi. We appreciate the extra minute. However, the 
discussion you are having is an extremely important one. Part 
of the problem that this committee has, at least this chairman 
has, is that there are multiple definitions of the way in which 
the money flows. And certainly between the services that does 
exist, and within the services, carryover funds.
    So, to achieve your goal we need to have a clear 
understanding of the accounting process, which is an ongoing 
issue within the Department of Defense.
    Mr. Bergman. You are not telling me that there is tricks 
played with the numbers are you?
    Mr. Garamendi. Of course I wouldn't.
    Mr. Bergman. Okay.
    Mr. Garamendi. Of course, the gentlemen----
    Mr. Bergman. Well, having, having built a budget inside the 
military of roughly a billion dollars a year for 4 years in my 
senior years in uniform, I have seen--I have played both 
offense and defense.
    Mr. Garamendi. Would you like to explain?
    [Laughter.]
    Mr. Garamendi. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    About a month ago I was over at the AUSA [Association of 
the United States Army] convention. I try to go over there 
every year. And I spent several hours over there this year and 
I was struck by how many platforms are robotic and autonomous. 
And it is just across the spectrum over there.
    So, General Gamble, given that you-all plan to have these 
autonomous and robotic platforms in your formation, and Army's 
Future Command is to accelerate modernization timelines, how 
are you going to get the depots ready to work on that stuff?
    General Gamble. Sir, Thank you for your question.
    So, we have embedded in every cross-functional team an Army 
logistician from Army Materiel Command specifically to have 
eyes and ears and to make sure that we upgrade, we modernize, 
and we improve or make modifications to the industrial base to 
keep pace with modernization.
    In some cases we don't know what the modernized system 
looks like quite yet. But there are decision points for every 
program along the way so that the industrial base, the 
infrastructure could be modified, improved, or reconstructed, 
developed, or restored, or modernized through SRM [sustainment, 
restoration, and modernization] funding. But that is our 
principal way is to embed Army logisticians in the cross-
functional teams.
    And we also invested into Army Futures Command a former 
brigade commander colonel, Army colonel, as the director of 
integration to integrate the sustaining base with 
modernization.
    Mr. Rogers. So, I take it you are not worried about that 
technology getting too far out in front of you?
    General Gamble. No, sir. It is--we are not, no, sir, we are 
not worried about it. We are cognizant that we have to keep 
pace. That we may--we don't want to wake up one day and have a 
system that we don't have the sustainment capability of Army to 
maintain.
    Mr. Rogers. Right. That is my point.
    Do any of you have that concern that you are going to wake 
up one day and not be able to have the infrastructure to work 
on those new technologies?
    I take it by the silence, the answer is no. Good.
    In the past, depots have had a hard time advocating for 
MILCON money for infrastructure. What do you think you are 
going to be able to do about that in the future? Do you think 
you are going to be able to be more aggressive in that front 
and productive?
    Admiral Moore. Yes, sir. Actually, I think what the Navy 
has tried to do, instead of having each of the depots kind of 
compete against themself for MILCON funding, which is our past 
practice, and every depot has its own local constituency, what 
we found in that area is we were having trouble getting the 
MILCON funding because we were competing against each other.
    The Navy's Shipyard Infrastructure Optimization Plan is 
really meant to be an integrated plan that takes a look at the 
infrastructure needs across the entire organic depots that I 
own. And then the Navy can set the priorities in terms of when, 
when does the work have to be done. And what I have found is 
that the innovative plan has allowed the Navy to actually take 
a holistic look at it. And we are now getting three times the 
MILCON funding that we were getting when I first came to the 
job in 2016. And that is likely to double again in the next 3 
or 4 years as we head into the plan.
    So, I think the competition for MILCON is best served when 
you can put an innovative plan together and you are not just 
doing this one project at a time.
    Mr. Rogers. Excellent.
    General Shrader. Sir, if I could just real quick. Certainly 
in the Marine Corps the fact that the Commandant signed off on 
our OIB plan this July to me signals that he is going to 
support the plan.
    Mr. Rogers. Excellent.
    General Shrader. And then the second thing is we do have 
three large MILCON projects right now underway in Albany, two 
in Albany and one in Barstow. So there is evidence there, yes, 
sir.
    Mr. Rogers. Good. And I like your new Commandant. He 
doesn't mind kicking over furniture and getting things done.
    General Shrader. Yes, sir.
    Mr. Rogers. So, he is my kind of guy.
    General Shrader. Yes, sir.
    Mr. Rogers. General Gamble, talking about carryover, as you 
mentioned it is a big thing in my world with the Anniston Army 
Depot, which is one of our largest depots. As you know, I 
worked with General Perna to get some language that we put into 
last year's NDAA to hopefully resolve that. I take it from this 
GAO report we need some more work on that?
    General Gamble. Sir, I am not prepared to answer that, 
honestly. I have read the GAO report. I understand it. I 
understand the Army's position. But I will be honest with you, 
I have a little bit of a blind spot on the language in the last 
NDAA specific to carryover.
    Mr. Rogers. Well, I told General Perna at the Depot Caucus 
Breakfast 2 or 3 months ago that if he needed some more 
refinement to that language, just let us know. Because I think 
you have heard up here that we want to be helpful on that. I 
recognize there may be some differences. But that is true of 
all of y'all--that is the plural of y'all in Alabama--just get 
us some language and we want to help you on this. But, 
specifically, let General Perna know that we want to be 
helpful.
    Thank you. I yield back, Mr. Chairman. Thank you.
    Mr. Garamendi. I thank you, Mr. Rogers.
    Since we ended that discussion with General Gamble, we have 
gone around this a couple of times, we need to know from you to 
fully inform our staff on your 2020 and 2021 land forces depot 
maintenance budget request. We want to go into detail. Part of 
what Mr. Rogers was talking about is a piece of this.
    We are concerned about happy talk and execution. We want 
happy talk to be executed, or executed to be happy talk, either 
way. So, if you will make sure you do that. I am not asking for 
a commitment. You know that I know that you will do it; 
correct? Thank you.
    General Gamble. Yes, sir.
    Mr. Garamendi. There we go, far end of the table, let's go 
to Texas.
    Ms. Escobar. Chairman, thank you so much for holding this 
hearing.
    Gentlemen, thank you so much for your testimony today and 
for your service. We are very, very grateful for it.
    General Gamble, I know that from your testimony and from 
what we have learned that Army depots and arsenals sometimes 
face challenges finding suppliers to provide parts for legacy 
systems that you need to repair. And we know that General Perna 
is a big fan of additive manufacturing. And additive 
manufacturing is so critical to our modernization and our 
readiness. It offers great competitive advantages, like faster 
delivery of parts, shorter acquisition timeline, shorter supply 
chain, potential cost savings and, in certain cases, can create 
lighter, heat- and weather-resistant parts.
    In my home district, at the University of Texas at El Paso, 
we have a world-class additive manufacturing facility through 
the Keck Center. And it is in fact a satellite center for 
America Makes within the National Center for Defense 
Manufacturing and Machining system. The kids--I call them kids, 
although they are young people--who are going through the 
program are among the brightest in the country. The leadership 
there is among the most ambitious and very bold in terms of 
trying to kind of capture the potential of additive 
manufacturing.
    And so, I am wondering if you can, number one, tell us a 
little bit more about the specific challenges that you face in 
finding the suppliers and, number two, have you considered 
partnering with smaller businesses and also academia like at 
the University of Texas at El Paso through the Keck Center in 
order to help fill these gaps?
    General Gamble. Yes, ma'am. Thanks for your question.
    So, the challenges of obsolescence are real. And you have 
pointed out many of those things.
    The finding repair suppliers, repair parts suppliers is 
challenging. In our vision, the Army vision, and our Army 
Secretary signed out an Army strategy and policy for additive 
manufacturing just in the last 60 days, and part of the Army 
vision is just that, to attack the obsolescence problems that 
we have because our depots are capable of, and they do it all 
the time, reverse engineer parts that we either can't find a 
supplier for or it is not economical. But that is not always 
the best way.
    So, obsolescence is a key component of our strategy. We 
have made, we have actually manufactured over 200 parts since 
March 19th, many of those obsolete parts, at Rock Island. But 
that is not our strategy either. Our strategy is to transmit 
proven data across the network to, even to the far forward edge 
of the battlefield and print parts forward.
    So, as we edge towards that strategy there are tons of 
opportunity to partner at echelon in our Army. We are not quite 
there yet. It's a tactical edge. We have some fundamental 
capabilities in tactical units right now.
    But so to answer your second part of your question, yes, 
there are small business opportunities. And there are more, 
there are opportunities for greater partnering with 
institutes--educational institutions and colleges. We are 
partnered with many right now, but predominantly in the Iowa/
Illinois area where our Center of Excellence is. But as we 
proceed down this path, I do believe there will be expanded 
opportunities.
    Ms. Escobar. I appreciate that. And I would love to host 
any or all of you at any point in El Paso at the University of 
Texas at El Paso so that you can see some of the cutting-edge 
additive manufacturing capabilities that our students and that 
our academics are helping promote and create.
    And I am running out of time, but I would encourage all of 
our other service leaders to do the same because I know we face 
the same challenges across the board. And, as such, we face the 
same opportunities going forward.
    Chairman, thank you. I yield back.
    Mr. Garamendi. Thank you, Ms. Escobar.
    You did raise a question that, an issue that I want to 
bring to the attention of all of you, and that is the small 
business opportunities. The major contractors are basically 
moving out of legacy and moving on to tomorrow's systems, 
leaving behind problems for you all to solve.
    I don't believe we have a robust system in place for each 
of your depots to reach out to small businesses, machine shops, 
additive manufacturing shops and the like, that may exist 1,000 
miles away from your depot. And so, I am going to pursue with 
you in the months ahead how we might be able to assist you in 
setting out a very wide net to capture those opportunities that 
exist out there.
    There are modern communications systems that you may be 
able to use called the internet and the like. So, we want to 
explore that. I have had the discussion with some of you about 
this. So, we will carry on with that. Not an issue for today, 
but an issue that we will come back and ask you about how that 
might be done service-wide with each of your services and 
follow up on Ms. Escobar's question.
    We will go to another quick round of questions here. I 
think I have one more. But let me turn to Ms. Horn and then I 
will wrap it up.
    Ms. Horn. Thank you, Chairman. I will be brief. I think 
this is an important conversation today, and many of my 
questions have been asked by my colleagues on both sides of 
this dais, which I truly appreciate about this committee.
    I want to follow up on one particular piece of building the 
workforce and the conversations that have been directed about 
working with our educational institutions as well as 
apprenticeship programs and how layering those things are 
important.
    I understand that a few of you work directly with those 
institutions. I want to ask about the direct relationships.
    I know in Oklahoma we have a very strong career tech 
system, and the ability to not only develop engineers at our 
advanced educational institutions but the practical skills-
based work. And if you have enough, sufficient ability to work 
directly with those institutions, the career techs, the 
community colleges, the hands-on and the apprentice programs, 
to get the specific skills that you need to hire on, and what 
else you might need authority-wise from us to do that.
    And I will just let you go down the line.
    General Shrader. Thank you, ma'am. The answer is yes. 
Locally with our community colleges, Albany State, Albany Tech, 
we work with them to help them develop their curriculum so it 
enables us to take on the workforce and do that. So, the answer 
to your question is, yes, we are working with them very closely 
to do that.
    General Kirkland. Congresswoman, I will add, like General 
Shrader, we have a close relationship often local and State 
level make this happen. In many cases we can take the technical 
college's training into our actual workspaces.
    Just recently, this last quarter in Georgia we have 
occupied a new facility where we are moving some commodities 
work. And the Central Georgia Technical College has their 
students training on the other end of the same facility. And we 
feel very comfortable about that relationship. It gives them 
hands-on experience. And candidly, we recruit very well among 
that training force.
    Admiral Peters. Yes, ma'am, we also partner with the 
community colleges in North Carolina, Florida, and California. 
And we have had some success in influencing the curricula such 
that the skill sets that we are looking for are accomplished 
there in the community college.
    Admiral Moore. Yeah, we also partner as well. But I would 
also point out that some of our efforts in our Navy depots are 
actually below the college level, because I think we need to 
emphasize that a lot of this workforce that we have today, the 
blue collar workforce, the welders, electricians, we don't need 
college graduates. And we need to actually value the artisans 
that actually get in there and do the really hard work of 
maintaining these depots, and make that a career that a young 
man or woman today could get into and spend a lot of time.
    And I saw data the other day that if you get trained as a 
welder at age 18, by the time you are 65 years old you will 
have made more money than someone who went to medical school 
and is just a general practitioner. So, I think more emphasis 
on valuing those skill sets and getting in and doing STEM 
[science, technology, engineering, and mathematics] early is 
something that we could, should keep doing.
    General Gamble. Ma'am, the Army has similar programs. We 
are very proud. They are generally regional. And just as 
Admiral Moore pointed out, they support our wage-grade stream 
of talent as well as the white collar stream of talent.
    Ms. Horn. Thank you very much.
    And, Admiral Moore, I couldn't agree with you more. I think 
a greater emphasis on long-term career-building skill sets that 
are needed across all of the depots and in so many other places 
in our workforce that goes to the small businesses as well as 
beyond just the engineering talent that is needed.
    And I will just say this and yield back the rest of my 
time. If there are additional, as we are looking at how we 
better understand your needs, the carryover, all of the other 
issues that we have addressed, additional ways that we can 
encourage cooperation and direct communication with these 
education institutions, perhaps even not just in the localized 
areas but across the services, that develop those workforces, 
that is something that I think we should all be interested in 
to maintain that organic industrial base.
    Thank you. I yield back.
    Mr. Garamendi. Thank you for raising that set of questions. 
The Federal money that supports the educational system, the 
career education training programs, require that those programs 
reach out to the employers in the area. So, there are two sides 
of this. Delighted to see the military is reaching out to the 
education programs. At the same time, those education and 
career technical programs out there are required, if they are 
going to get Federal money, to reach out to the employers, all 
of whom are sitting at a table. So, that is a back and forth.
    I also want to note that with regard to retention, pay is 
an issue. The continuing resolution that the House passed--and 
presumably the Senate will take care of it today otherwise we 
have a shutdown tonight--does not include a pay increase for 
civilian employees in the military. It does include a pay 
increase for the military employees and military personnel. So, 
okay, we are likely to have a problem here on retention if we 
don't deal with the increase in pay requirements that would be 
necessary.
    A couple of other things. I want to iterate again that each 
of you have developed a plan for the organic industrial bases 
that you are responsible for. We will be reviewing those plans 
in detail. And the rubber meets the road with the money. So, it 
is show me the money in your budgets going forward in your 
programs. If it is not there, we will have a discussion, and we 
will play both offense and defense on this, Mr. Bergman. And it 
has been known that I can be offensive.
    Mr. Bergman. Noted.
    Mr. Garamendi. Well noted.
    I want to make sure, we will come back on this hiring thing 
with a little more definitive discussion on it. It is an issue 
that continues on. And that is the waiting period and the like.
    There is one very, very important and, frankly, a very 
unhappy thing that I need to do, so I will try to make it as 
happy as possible. Next to me, Brian Greer is, this is his last 
year with this committee. He is moving on to greater 
opportunities over in the non-government, or at least indirect 
government system. I understand he will be joining a new firm 
here in the town and become a major part of that firm.
    So, Brian, we will certainly miss you. You have been an 
extraordinary employee for and professional staff here for a 
long period of time. How many years?
    Mr. Greer. Three.
    Mr. Garamendi. Three years. Thank you so very much for that 
service here.
    And behind us, the Marine Corps has a very serious problem 
that they are going to have some time overcoming, and that is 
they have stolen Megan Handal from this committee. And she is 
going to work down at Quantico.
    Mr. Scott. General Shrader.
    General Shrader. Sir, I am in Albany, Georgia, so I----
    [Laughter.]
    Mr. Garamendi. You are not the responsible party here?
    General Shrader. The Marine Corps is very good at 
recognizing talent and poaching it, so.
    Mr. Garamendi. Okay. We will accept that.
    Megan, you have been wonderful to work with. You have been 
a joy for all of us. And thank you so very much for all of your 
time with the committee. How long?
    Ms. Handal. Three years.
    Mr. Garamendi. Three years.
    General Shrader. Welcome aboard.
    Ms. Handal. Thank you, sir.
    Mr. Garamendi. I am getting a feeling here that 3 years is 
something of importance.
    We will miss both of you. And thank you so very much and 
for all of your service. Thank you very much.
    [Applause.]
    Mr. Garamendi. We will be back. Thank you so very much.
    The committee is adjourned.
    [Whereupon, at 10:25 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           November 21, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 21, 2019

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

      
    
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           November 21, 2019

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT

    General Kirkland. Enacted in 1964, the 180-day policy was waived 
after a state of national emergency was declared on 14 September 2001. 
After that, the Air Force was afforded the flexibility to appoint 
retired military members within 180 days of retirement without needing 
a waiver. On 23 December 2016, a new DOD requirement took effect as 
part of the National Defense Authorization Act (NDAA) FY17. This NDAA 
mandated military retirees seeking to enter civil service in the 
Defense Department now require a waiver if they are within 180-days 
following their official date of retirement. The Department of Defense 
Instruction, Number 1402.01, dated 9 September 2007, paragraph 3.3 
defines Retired Member of the Armed Forces as a ``member or former 
member of the Armed Forces who is entitled to retired, retirement, or 
retainer pay.'' Furthermore, HQ AF/A1, MFR, dated 19 April 2019, b. 
Applicability, specifically states, ``the 180-day waiting period 
applies to active/retiring/retired members of the Armed Forces (to 
include Guard and Reserve retirees) and those who have medically 
retired and are entitled to retired, retirement, or retainer.'' Since 
all supporting documentation and guidance provided addresses all 
members and former members of Guard and Reserve an assumption can be 
made that there is no distinction when it comes to defining Guard and 
Reserve retirement entitlements therefore the 180-day waiver process is 
applied equally to part-time and full-time Reserve and Guard personnel. 
  [See page 17.]

                                  <all>
</pre></body></html>
